Audit Report 98-11
IMMIGRATION AND NATURALIZATION SERVICE
REFUGEES, ASYLUM AND PAROLE SYSTEM
Audit Report 98-11, (3/98)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
FINDINGS AND RECOMMENDATIONS
I.  ACCOUNTABILITY OF ALIEN IDENTIFICATION NUMBERS
II.  INTERFACES WITH OTHER INS SYSTEMS
III.  DATA INPUT CONTROLS
IV.  COMPUTER SECURITY
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS
APPENDIX - OBJECTIVE, SCOPE AND METHODOLOGY
Executive Summary
The Immigration and Naturalization Service (INS) implemented the Refugees, Asylum, and
Parole System (RAPS) in 1991 to automate alien casework management. RAPS is designed to
automate tracking of individuals seeking asylum, to control asylum and refugee
applications, and to provide an efficient and effective asylum adjudication process. In
1994, the system gained greater visibility when it was redesigned to support the
Commissioner's Asylum Reform initiative. As of 1996, RAPS implementation costs have
amounted to almost $1.2 million.
The system operates from the Justice Data Center and can be accessed 24 hours a day
from remote computer workstations at the four INS service centers and eight asylum
offices. In addition, the system interfaces with other INS systems to identify and update
alien address changes and to track alien files.
The objective of our audit was to determine whether RAPS satisfied user needs by
automating the alien casework process and to assess management controls. We found that
overall RAPS users surveyed indicated that the system satisfied user needs by automating
the asylum casework process and the system reduced manual processing. However, we found
the following management control deficiencies:
Alien file numbers were not always properly accounted for, permitting possible
fraudulent record creation in RAPS using missing numbers.
System interfaces were not always effective, affecting the timeliness and reliability of
information used for decision making.
Data input controls, although adequate at all INS service centers, were not adequate at
asylum offices, diminishing the reliability of alien status reporting.
Computer security was not adequate, opening the system to internal and external attack,
and loss of critical data.
Prior to the preparation of the report, we met with INS management to review our
findings and recommendations. The report discusses conditions found, INS management
comments, recommendations, and a status update regarding the action performed to close the
recommendations. The details of our work are contained in the Findings and Recommendations
section of the report. Our objective, audit scope and methodology are contained in the
Appendix.
FINDINGS AND RECOMMENDATIONS
We found that RAPS satisfied user needs by automating the asylum casework process. Over
two thirds of the surveyed users answered positively when asked whether RAPS automated
their work, reduced manual work, and contained reliable data. We also found that data
input controls were adequate at all INS service centers. We did, however, identify
management control deficiencies in the areas of alien file number accountability, system
interfaces, data input controls at the asylum offices, and computer security. These
deficiencies occurred because INS personnel had either not developed or adhered to
established guidelines and procedures.
I.  ACCOUNTABILITY OF ALIEN IDENTIFICATION NUMBERS
INS assigns an alien identification number (A-number) to each new application for
asylum. INS personnel obtain the A-number from a pre-numbered alien file folder and input
it into RAPS. The A-number is unique to each alien record and is the primary RAPS data
element. Consequently, INS personnel are required to control file folders to prevent
fraudulent alien records from being created in RAPS. Federal regulations require that
access to records and resources be limited to authorized individuals.
For two of four service centers and one of eight asylum offices, we found alien
identification number accountability deficiencies including:
At the Eastern Service Center, INS personnel did not securely store and account for
issued and unused alien file folders.
At the Western Service Center, the alien file folder log was not reconciled with file
folder distribution sheets to ensure that the folders were properly accounted for.
At the Los Angeles Asylum Office, INS personnel maintained a log to track alien file
folder distribution. However, the log indicated that no alien file folders had been
tracked since 1995.
In our judgment, these deficiencies occurred because INS personnel did not adhere to
established guidelines for accounting for and physically securing pre-numbered alien file
folders. Effective accountability of alien identification numbers prevents INS personnel
from establishing fraudulent records in RAPS.
INS Comments:
INS officials concurred and provided us with documentation showing the guidelines for
accounting for and physically securing alien file folders. In addition, INS officials
provided us with a copy of its INSpect Guide for Records Program dated February
1997, which is used by INS for reviewing the security of alien file folders. INS officials
agreed that INS personnel should be reminded of these established guidelines and the
importance of securing alien file folders.
Recommendation and Status
We recommend that the Commissioner, INS:
1. Ensure adherence to established guidelines for accounting for and physically
securing alien file folders.
Closed. INS provided us with: (a) an INSpect Report, dated October 28, 1997,
documenting a review of A-file folder accountability at the Western Service Center; (b) a
schedule of future inspections, which includes a review of the Eastern Service Center; and
(c) documentation demonstrating that established guidelines for accounting for and
physically securing alien file folders had been communicated to appropriate INS personnel.
II. INTERFACES WITH OTHER INS SYSTEMS
RAPS interfaces with the Computer Linked Applicant Information System (CLAIMS)1 and the Receipt and Alien File Accountability Control System
(RAFACS).2 RAPS interfaces with CLAIMS to identify and
update alien address changes, and RAFACS to track alien files. Effective system interfaces
depend on reliable data and effective electronic communications. Reliable data are ensured
when organizations develop change management procedures to detect and correct changed or
deleted data. Effective communications procedures ensure that data are transmitted
promptly and that transmissions are verified. Federal regulations state that agencies
reasonably ensure that timely and reliable information is obtained and maintained to
assist decision making.
We found CLAIMS interface deficiencies with 26 of 144 transactions including:
20 CLAIMS alien address changes were incorrectly updated in RAPS.
Three alien addresses in CLAIMS did not match the addresses in RAPS.
Three cases in RAPS were closed when, in fact, CLAIMS indicated they should have been
reopened.
We found RAFACS interface deficiencies including:
79 of 196 RAFACS alien records were not updated in RAPS.
In our judgment, the CLAIMS interface deficiencies occurred because INS had not
developed change management procedures to detect and correct changed or deleted data. The
RAFACS interface deficiencies occurred because INS personnel in the field did not adhere
to established procedures to ensure that interfaced data are transmitted and received.
Effective systems interfaces ensure that timely and reliable information is available to
managers to make informed decisions.
INS Comments:
INS officials concurred and provided us with CLAIMS documentation showing the
implementation of change management procedures to detect and correct changed or deleted
data. Regarding RAFACS interface deficiencies, INS officials concurred that personnel did
not adhere to established procedures. INS officials stated that the Local Area Network
(LAN) administrators at the asylum offices are responsible for uploading RAFACS files.
These administrators are contract employees whose duties are defined in their contract.
INS officials agreed that INS' contract manager would send a reminder memorandum to the
LAN administrators reemphasizing their responsibility to upload the RAFACS files.
Recommendations and Status
We recommend that the Commissioner, INS:
2. Develop change management procedures to detect and correct changed or deleted data.
Closed. INS officials provided us with the implemented change management
procedures.
3. Ensure adherence by INS contract personnel to established procedures to ensure that
interfaced data are transmitted and received.
Closed. INS provided us with a memorandum reminding contract personnel at the
asylum offices to follow established procedures to ensure that interfaced data are
transmitted and received.
III.  DATA INPUT CONTROLS
Service Centers
INS service center personnel create initial records and alien files by inputting data
into RAPS from the Form I-589, Application for Asylum. We tested data authenticity,
completeness, and accuracy by comparing 4,704 randomly selected RAPS entries from the Form
I-589 source document with downloaded data from the four INS service centers. The universe
of data was broken down into eight individual populations representing each asylum office
jurisdiction. For each of the sampled populations, we found an acceptable one percent
error rate.3 We attributed the low error rate to
effective operator data entry training, supervisory oversight, and unit quality control.
Asylum Offices
Asylum office personnel update RAPS data after conducting interviews with the asylum
applicants. Data input controls require asylum personnel to ensure the accuracy and
completeness of RAPS data by reviewing error and exception reports. Error and exception
reports pinpoint data entry errors and missing data. Federal regulations require that
reliable information be obtained and maintained, and that transactions be properly
accounted for to prepare reliable reports.
We found asylum office data input control deficiencies including:
At all eight asylum offices, personnel were not reviewing exception reports to identify
rejected data and ensure its correct re-entry.
At four of eight asylum offices, data input procedures were not consistently applied for
entering data only after proper authorization. For example, managers at the four asylum
offices were not informed when personnel created initial RAPS records and alien files.
Whereas, at the remaining four asylum offices, managers required that clerks gain
supervisory approval prior to entering a new record in RAPS.
In our judgment, these data input control deficiencies occurred because INS personnel
did not adhere to established data input control procedures for asylum offices to review
and follow up on RAPS database error and exception reports, and enter data only after
proper authorization. As a result of control weaknesses identified in A-file folder
accountability, data input controls at the asylum offices, and system interfaces, we could
not determine data reliability once custody of the Application for Asylum is transferred
from the service centers to the individual asylum offices. However, 86 percent of users
surveyed in our user satisfaction survey stated that they thought that RAPS data were
reliable. We also found that data entered at the service centers were 99 percent accurate.
Effective data input controls prevent database and output report inaccuracies.
INS Comments:
INS officials concurred and stated they would send a memorandum to the asylum offices
reminding personnel to review and follow up on exception reports and to require proper
authorization before entering new records into RAPS.
Recommendation and Status
We recommend that the Commissioner, INS:
4. Ensure adherence to established data input procedures to: (a) review and follow up
on RAPS exception reports, and (b) enter data only after proper authorization.
a. Closed. INS personnel provided us with documentation demonstrating that
established procedures to ensure review and follow up on RAPS exception reports had been
communicated to appropriate personnel.
b. Closed. INS provided us with documentation demonstrating that established
procedures to enter data only after proper authorization were communicated to appropriate
personnel.
IV.  COMPUTER SECURITY
The goal of a computer security program is to protect critical data from unauthorized
use, deletion, and modification. An effective computer security program includes
informative and practical computer security and contingency plans, an analysis of the
risks associated with operating the information system, and computer security training for
users. Federal regulations require agencies to physically secure computer systems, prepare
computer security and contingency plans, conduct risk analyses on critical computer
systems, and provide initial and refresher computer security training to protect systems
from internal and external attack, and loss of critical data.
For the four service centers and eight asylum offices tested, we found computer
security deficiencies including:
Four asylum offices did not close or lock doors to the computer facilities.
One service center and one asylum office did not record access to their facilities.
Three service centers and six asylum offices did not prepare computer security plans.
Two service centers and three asylum offices did not perform risk analyses.
One service center and six asylum offices did not prepare contingency plans. In
addition, two service centers and one asylum office were in the process of preparing
contingency plans.
Six asylum offices did not provide initial and refresher computer security awareness
training to their personnel.
In our judgment, the first two weaknesses occurred because INS had not followed
established access control procedures. The last four deficiencies occurred because the
Department of Justice had not developed and implemented effective computer security
program guidance for its components, and monitored compliance. In a separate audit report,
we recommended the Assistant Attorney General for Administration develop and implement
effective computer security guidance for its components, and monitor compliance.
Accordingly, we will offer no formal recommendation on these weaknesses. Effective
computer security program guidance will provide INS with guidelines to develop and manage
an effective RAPS computer security program.
INS Comments:
INS officials concurred and provided us with documentation containing steps to ensure
that computer room doors are secured. INS personnel further stated they would send a
memorandum to the appropriate offices notifying them of the security weaknesses and the
corrective action required.
Recommendation and Status
We recommend that the Commissioner, INS:
5. Correct the access control weaknesses to ensure that: (a) computer room doors are
closed and locked, and (b) access to its facilities is recorded.
Closed. INS personnel provided documentation showing that appropriate offices
were notified of the security weaknesses and the completion of corrective action to ensure
that computer room doors are closed and locked and access to facilities is recorded.
STATEMENT ON COMPLIANCE WITH
LAWS AND REGULATIONS
The audit was conducted in accordance with generally accepted government auditing
standards. We audited INS' system policies and associated operational procedures. In
connection with the audit, and as required by the standards, we also tested transactions
and records to obtain reasonable assurance with laws and regulations that, if not complied
with, we believe could have a material effect on the INS' mission.
Federal security laws and regulations require agencies to establish controls assuring
adequate security of information processed, transmitted, or stored in Federal automated
information systems. The specific laws and regulations against which we conducted our
tests included: (1) the Computer Security Act of 1987 (Public Law 100-235); (2) OMB
Circular A-123, Management Accountability and Control; and (3) OMB Circular A-130,
Management of Federal Information Resources.
The results of our tests indicated that for the Headquarters and field offices tested,
INS did not comply with the laws and regulations referred to above in the areas of alien
file number accountability, data input controls, system interfaces, and computer security.
Compliance with laws and regulations applicable to the data reliability of RAPS is the
responsibility of INS management. Based on our limited review, we considered the data in
RAPS reliable and did not find errors that would preclude the use of the
computer-processed data.
The Justice Data Center management is responsible for establishing and maintaining the
overall computer security and control environment at the data centers. A recent Department
of Justice Annual Financial Statement Report for Fiscal Year 1996 disclosed that general
controls in place at the Department's Maryland and Texas data centers were not effective
to adequately safeguard software programs and data such as RAPS from unauthorized access
and modification.
Because of the materiality of noncompliance noted in this report, we cannot provide
assurance that INS complied with the above-cited laws and regulations with respect to
those offices not tested.
APPENDIX
OBJECTIVES, SCOPE AND METHODOLOGY
OBJECTIVES
The objective of our audit was to determine whether RAPS satisfied user needs by
automating the alien casework process and was managed effectively. Specifically, we
determined whether: (1) alien identification numbers were properly accounted for,
(2) INS service center and asylum office data input controls were adequate,
(3) interfaces with the Computer Linked Applicant Information Management System
(CLAIMS) and the Receipt and Alien File Accountability Control System (RAFACS) were
effective, and (4) computer security was adequate.
SCOPE AND METHODOLOGY
The audit was performed in accordance with generally accepted government auditing
standards. However, we may not be considered to be completely independent of INS, as
required by the standards, because INS has reimbursed us for work that pertained to INS
fee-supported programs. The Office of Management and Budget and the Department of Justice
(including the OIG, the INS, and the Justice Management Division) disagree with INS
funding our work and are attempting to have the funds appropriated directly to the OIG. In
FYs 1996 and 1997, the OIG received $5 million for fee-related audits, investigations, and
inspections. The dollar amount funded approximately 14 percent of the total OIG staff
positions. Nonetheless, we consider ourselves independent and do not believe that our
reimbursement arrangements with INS have had any effect with regard to our conduct of this
audit. We examined laws, policies, regulations, manuals, and memoranda; interviewed
responsible personnel; and performed data integrity tests of RAPS data.
Our audit included reviews of the four INS service centers and eight asylum offices.
The reviews focused on general and application controls. We randomly selected the records
used to conduct our data integrity tests using audit software. The universe of data was
broken down into eight individual populations. For each population, the software randomly
selected and sampled 20-30 records. Each record contained 24 RAPS entries, for a total of
4,704. For each of the eight sampled populations, we found an acceptable one percent error
rate. In addition, we interviewed approximately 80 employees at INS Headquarters and field
offices. Finally, we conducted a survey to determine the level of satisfaction among 36 of
311 judgmentally selected RAPS users.
1 CLAIMS is a mainframe system that records and tracks cases
for immigration benefits.
2 RAFACS is a local area networked system that tracks the
location of alien files within designated offices.
3 This error rate applies only to initial record creation at
the service centers. It does not apply to subsequent updates performed at the asylum
offices where we found data input control deficiencies.
#####